                 Department of Veterans Affairs
                 Office of Inspector General


                   Office of Healthcare Inspections

Report No. 14-00228-94


 Community Based Outpatient Clinic 

  and Primary Care Clinic Reviews 

                at 

 Overton Brooks VA Medical Center 

       Shreveport, Louisiana 





March 14, 2014

                         Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations 

                    Telephone: 1-800-488-8244 

                   E-Mail: vaoighotline@va.gov

         (Hotline Information: www.va.gov/oig/hotline)

                        CBOC and PCC Reviews at Overton Brooks VA Medical Center, Shreveport, LA



                                            Glossary
                       AUD        alcohol use disorder
                       CBOC       community based outpatient clinic
                       DWHP       designated women’s health provider
                       EHR        electronic health record
                       EOC        environment of care
                       FY         fiscal year
                       MH         mental health
                       MI         motivational interviewing
                       MM         medication management
                       NM         not met
                       OIG        Office of Inspector General
                       PACT       Patient Aligned Care Teams
                       PCC        primary care clinic
                       PCP        primary care provider
                       RN         registered nurse
                       VHA        Veterans Health Administration
                       VISN       Veterans Integrated Service Network
                       WH         women’s health




VA OIG Office of Healthcare Inspections
                                CBOC and PCC Reviews at Overton Brooks VA Medical Center, Shreveport, LA



                                            Table of Contents 

                                                                                                                             Page 

Executive Summary ...................................................................................................              i


Objectives, Scope, and Methodology.......................................................................                          1

  Objectives ...............................................................................................................       1

  Scope......................................................................................................................      1

  Methodology ...........................................................................................................          1


Results and Recommendations ................................................................................                       3

  EOC ........................................................................................................................     3

  AUD ........................................................................................................................     5

  MM ..........................................................................................................................    7

  DWHP Proficiency ..................................................................................................              8


Appendixes
  A. CBOC Profiles and Services Provided ..............................................................                            9

  B. PACT Compass Metrics ....................................................................................                    11

  C. VISN Director Comments ..................................................................................                    15

  D. Interim Center Director Comments ....................................................................                        16

  E. OIG Contact and Staff Acknowledgments .........................................................                              20

  F. Report Distribution .............................................................................................            21

  G. Endnotes ...........................................................................................................         22





VA OIG Office of Healthcare Inspections
                        CBOC and PCC Reviews at Overton Brooks VA Medical Center, Shreveport, LA



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected patient care
activities to determine whether the community based outpatient clinics (CBOCs) and
primary care clinics (PCCs) provide safe, consistent, and high-quality health care for our
veterans. We conducted a site visit during the week of January 27, 2014, at the
Monroe, LA, CBOC which is under the oversight of the Overton Brooks VA Medical
Center and Veterans Integrated Service Network 16.

Review Results: We conducted four focused reviews and had no findings for the
Designated Women’s Health Providers’ Proficiency review. However, we made
recommendations in the following three review areas:

Environment of Care (EOC). Ensure that:

	   All identified EOC deficiencies at the Monroe CBOC are reported to and tracked by
     the parent facility Executive Safety Committee until resolution.

	   The parent facility include staff at the Monroe CBOC in required education, training,
     planning, and participation in annual disaster exercises.

Alcohol Use Disorder. Ensure that CBOC/PCC:

	   Staff consistently complete diagnostic assessments for patients with a positive
     alcohol screen.

	   Staff consistently document the offer of further treatment to patients diagnosed with
     alcohol dependence.

Medication Management. Ensure that CBOC/PCC staff:

	   Document that medication reconciliation was completed at each episode of care
     where the newly prescribed fluoroquinolone was administered, prescribed, or
     modified.

	   Document the evaluation of patient’s level of understanding for the medication
     education.




VA OIG Office of Healthcare Inspections                                                       i
                        CBOC and PCC Reviews at Overton Brooks VA Medical Center, Shreveport, LA


Comments
The VISN and Interim Center Directors agreed with the CBOC and PCC review findings
and recommendations and provided acceptable improvement plans. (See Appendixes
C and D, pages 15–19, for the full text of the Directors’ comments.) We will follow up on
the planned actions until they are completed.




                                                         JOHN D. DAIGH, JR., M.D. 

                                                        Assistant Inspector General for 

                                                           Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                       ii
                             CBOC and PCC Reviews at Overton Brooks VA Medical Center, Shreveport, LA



                    Objectives, Scope, and Methodology 

Objectives
The CBOC and PCC reviews are an element of the OIG’s efforts to ensure that our
Nation’s veterans receive high-quality VA health care services. As such, the CBOC and
PCC reviews are recurring evaluations of selected primary care operations that focus on
patient care quality and the EOC. In general, our objectives are to:

      	   Determine whether the CBOCs are compliant with EOC requirements.

      	   Determine whether CBOCs/PCCs are compliant with VHA requirements in the
           care of patients with AUD.

      	   Determine compliance with requirements for the clinical oversight and patient
           education of fluoroquinolones for outpatients.

      	   Evaluate if processes are in place for DWHPs to maintain proficiency in WH.

Scope
To evaluate for compliance with requirements related to patient care quality and the
EOC, we conducted an onsite inspection, reviewed clinical and administrative records,
and discussed processes and validated findings with managers and employees.
The review covered the following four activities:

      	   EOC

      	   AUD

      	   MM

      	   DWHP Proficiency

The scope of this review is limited to the established objectives. Issues and concerns
that come to our attention that are outside the scope of this standardized inspection will
be reviewed and referred accordingly.

Methodology
The onsite EOC inspection was only conducted at a randomly selected CBOC that had
not been previously inspected.a Details of the targeted study populations for the AUD,
MM, and DWHP Proficiency focused reviews are noted in Table 1.




a
    Includes 93 CBOCs in operation before March 31, 2013.


VA OIG Office of Healthcare Inspections                                                            1
                            CBOC and PCC Reviews at Overton Brooks VA Medical Center, Shreveport, LA


Table 1. CBOC/PCC Focused Reviews and Study Populations

      Review Topic                                    Study Population
          AUD                  All CBOC and PCC patients screened within the study period
                               of July 1, 2012, through June 30, 2013, and who had a positive
                               AUDIT-C scoreb and all providers and RN Care Managers
                               assigned to PACT prior to October 1, 2012.
            MM                 All outpatients with an original prescription ordered for one of
                               the three selected fluoroquinolones from July 1, 2012, through
                               June 30, 2013.
    DWHP Proficiencies         All WH PCPs designated as DWHPs as of October 1, 2012,
                               and who remained as DWHPs until September 30, 2013.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

The review was done in accordance with OIG standard operating procedures for CBOC
and PCC reviews.




b
 The AUDIT-C is a brief alcohol screen that reliably identifies patients who are hazardous drinkers or have active
AUDs. Scores range from 0-12.


VA OIG Office of Healthcare Inspections                                                                              2
                                  CBOC and PCC Reviews at Overton Brooks VA Medical Center, Shreveport, LA



                          Results and Recommendations 

EOC
The purpose of this review was to evaluate whether CBOC managers have established and
maintained a safe and clean EOC as required.1

We reviewed relevant documents and conducted a physical inspection of the Monroe CBOC.
The table below shows the areas reviewed for this topic. The areas marked as NM did not meet
applicable requirements and needed improvement.

Table 2. EOC

NM                      Areas Reviewed                                      Findings
       The CBOC’s location is clearly identifiable
       from the street as a VA CBOC.
       The CBOC has interior signage available that
       clearly identifies the route to and location of
       the clinic entrance.
       The CBOC is Americans with Disabilities Act
       accessible.
       The furnishings are clean and in good repair.
       The CBOC is clean.
       The CBOC maintains a written, current
       inventory of hazardous materials and waste
       that it uses, stores, or generates.
       An alarm system and/or panic buttons are
       installed and tested in high-risk areas (e.g.,
       MH clinic).
       Alcohol hand wash or soap dispenser and
       sink are available in the examination rooms.
       Sharps containers are secured.
       Safety needle devices are available.
       The CBOC has a separate storage room for
       storing medical (infectious) waste.
       The CBOC conducts fire drills (at least every
       12 months).
       Means of egress from the building are
       unobstructed.
       Access to fire alarm pull stations is
       unobstructed.
       Access to fire extinguishers is unobstructed.
       The CBOC has signs identifying the locations
       of fire extinguishers.
       Exit signs are visible from any direction.
       No expired medications were noted during the
       onsite visit.
       All medications are secured from
       unauthorized access.


VA OIG Office of Healthcare Inspections                                                                 3
                                  CBOC and PCC Reviews at Overton Brooks VA Medical Center, Shreveport, LA


NM               Areas Reviewed (continued)                                  Findings
       Patient-identifiable information is protected on
       laboratory specimens during transport so that
       patient privacy is maintained.
       Adequate privacy is provided to patients in
       examination rooms.
       Documents containing patient-identifiable
       information are not laying around, visible, or
       unsecured.
       Window coverings provide privacy.
       The CBOC has a designated examination
       room for women veterans.
       Adequate privacy is provided to women
       veterans in the examination room.
       The Information Technology network
       room/server closet is locked.
       All computer screens are locked when not in
       use.
       Staff use privacy screens on monitors to
       prevent unauthorized viewing in high-traffic
       areas.
 X     EOC rounds are conducted semi-annually             EOC deficiencies at the Monroe CBOC were not
       (at least twice in a 12-month period) and          reported to and tracked by the parent facility
       deficiencies are reported to and tracked by the    Executive Safety Committee until resolution.
       EOC Committee until resolution.
       The CBOC has an automated external
       defibrillator.
       Safety inspections are performed on the
       CBOC medical equipment in accordance with
       Joint Commission standards.
 X     The parent facility includes the CBOC in           The parent facility did not include the Monroe
       required education, training, planning, and        CBOC in required education, training, planning,
       participation leading up to the annual disaster    and participation leading up to the annual
       exercise.                                          disaster exercises.
       The parent facility’s Emergency Management
       Committee evaluates CBOC emergency
       preparedness activities, participation in annual
       disaster exercise, and staff training/education
       relating to emergency preparedness
       requirements.

Recommendations

1. We recommended that all identified environment of care deficiencies at the Monroe CBOC
are reported to and tracked by the parent facility Executive Safety Committee until resolution.

2. We recommended that the parent facility include staff at the Monroe CBOC in required
education, training, planning, and participation in annual disaster exercises.




VA OIG Office of Healthcare Inspections                                                                     4
                                  CBOC and PCC Reviews at Overton Brooks VA Medical Center, Shreveport, LA


AUD
The purpose of this review was to determine whether the facility’s CBOCs and PCCs complied
with selected alcohol use screening and treatment requirements.2

We reviewed relevant documents. We also reviewed 40 EHRs and validated findings with key
managers and staff. The table below shows the areas reviewed for this topic. The areas
marked as NM did not meet applicable requirements and needed improvement.

Table 3. AUD

NM                    Areas Reviewed                                          Findings
       Alcohol use screenings are completed during
       new patient encounters, and at least annually.
 X     Diagnostic assessments are completed for           Staff did not complete diagnostic assessments
       patients with a positive alcohol screen.           for 5 (13 percent) of 40 patients who had
                                                          positive alcohol use screens.
       Education and counseling about drinking
       levels and adverse consequences of heavy
       drinking are provided for patients with positive
       alcohol screens and drinking levels above
       National Institute of Alcohol Abuse and
       Alcoholism guidelines.
 X     Documentation reflects the offer of further        We did not find documentation of the offer of
       treatment for patients diagnosed with alcohol      further treatment for 2 of 13 patients diagnosed
       dependence.                                        with alcohol dependence.
       For patients with AUD who decline referral to
       specialty care, CBOC/PCC staff monitored
       them and their alcohol use.
       Counseling, education, and brief treatments
       for AUD are provided within 2 weeks of
       positive screening.
       CBOC/PCC RN Care Managers have
       received MI training within 12 months of
       appointment to PACT.
       CBOC/PCC RN Care Managers have
       received VHA National Center for Health
       Promotion and Disease Prevention-approved
       health coaching training (most likely TEACH
       for Success) within 12 months of appointment
       to PACT.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

3. We recommended that CBOC/Primary Care Clinic staff consistently complete diagnostic
assessments for patients with a positive alcohol screen.




VA OIG Office of Healthcare Inspections                                                                      5
                                  CBOC and PCC Reviews at Overton Brooks VA Medical Center, Shreveport, LA


4. We recommended that CBOC/Primary Care Clinic staff consistently document the offer of
further treatment to patients diagnosed with alcohol dependence.




VA OIG Office of Healthcare Inspections                                                                 6
                                  CBOC and PCC Reviews at Overton Brooks VA Medical Center, Shreveport, LA


MM
The purpose of this review was to determine whether appropriate clinical oversight and
education were provided to outpatients prescribed oral fluoroquinolone antibiotics.3

We reviewed relevant documents. We also reviewed 40 EHRs and validated findings with key
managers and staff. The table below shows the areas reviewed for this topic. The areas
marked as NM did not meet applicable requirements and needed improvement.

Table 4. Fluoroquinolones

  NM                    Areas Reviewed                                         Findings
   X      Clinicians documented the medication            We did not find documentation that medication
          reconciliation process that included the        reconciliation included the newly prescribed
          fluoroquinolone.                                fluoroquinolone in 13 (33 percent) of 40 patient
                                                          EHRs.
          Written information on the patient’s
          prescribed medications was provided at the
          end of the outpatient encounter.
          Medication counseling/education for the
          fluoroquinolone was documented in the
          patients’ EHRs.
   X      Clinicians documented the evaluation of         Clinicians did not document the level of
          each patient’s level of understanding for the   understanding for 7 (18 percent) of 40 patients.
          education provided.
          The facility complied with local policy.

Recommendations

5. We recommended that staff document that medication reconciliation was completed at each
episode of care where the newly prescribed fluoroquinolone was administered, prescribed, or
modified.

6. We recommended that staff document the evaluation of patient’s level of understanding for
the medication education.




VA OIG Office of Healthcare Inspections                                                                      7
                                  CBOC and PCC Reviews at Overton Brooks VA Medical Center, Shreveport, LA


DWHP Proficiency
The purpose of this review was to determine whether the facility’s CBOCs and PCCs complied
with selected DWHP proficiency requirements.4

We reviewed the facility self-assessment, VHA and local policies, Primary Care Management
Module data, and supporting documentation for DWHPs’ proficiencies. The table below shows
the areas reviewed for this topic.           The facility generally met requirements.
We made no recommendations.

Table 5. DWHP Proficiency

NM                    Areas Reviewed                                        Findings
       CBOC and PCC DWHPs maintained
       proficiency requirements.
       CBOC and PCC DWHPs were designated
       with the WH indicator in the Primary Care
       Management Module.




VA OIG Office of Healthcare Inspections                                                                 8
                                                                        CBOC and PCC Reviews at Overton Brooks VA Medical Center, Shreveport, LA
                                                                                                                                    Appendix A


                                                                  CBOC Profiles 

This review evaluates the quality of care provided to veterans at all of the CBOCs under the parent facility’s oversight.c
The table below provides information relative to each of the CBOCs.

                                                                                   Uniquesd                                  Encountersd

                            Station                   CBOC
     Location     State                Localitye                  MHg        PCh        Otheri      All        MHg        PCh       Otheri        All
                               #                       Sizef
    Longview       TX       667GC        Urban        Large       797       5,301       3,307      5,872      4,202      11,639      8,849       24,690
    Monroe         LA       667GB        Urban        Large       627       4,834       2,959      5,052      2,016      11,142      6,846       20,004
    Texarkana      AR       667GA        Urban       Mid-Size     746       4,457       2,648      4,776      3,820      12,812      8,036       24,668
 

 




c
  Includes all CBOCs in operation before March 31, 2013. 

d
   Unique patients and Total Encounters – Source: MedSAS outpatient files; completed outpatient appointments indicated by a valid stop code during the 

July 1, 2012, through June 30, 2013, timeframe at the specified CBOC. 

e
  http://vaww.pssg.med.va.gov/PSSG/DVDC/FY2013_Q1_VAST.xlsx

f
  Based on the number of unique patients seen as defined by VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics, 

September 11, 2008, the size of the CBOC facility is categorized as very large (> 10,000), large (5,000-10,000), mid-size (1,500-5,000), or small (< 1,500).

g
  Mental Health includes stop codes in the 500 series, excluding 531 and 563, in the primary position. 

h
  Primary Care includes the stop code list in the primary position: 323 – Primary Care; 322 – Women’s Clinic; 348 – Primary Care Group; 350 – Geriatric 

Primary Care; 531 – MH Primary Care Team-Individual; 563 – MH Primary care Team-Group; 170 – Home Based Primary Care (HBPC) Physician. 

i
  All other non-Primary Care and non-MH stop codes in the primary position.


VA OIG Office of Healthcare Inspections                                                                                                                   9
                           CBOC and PCC Reviews at Overton Brooks VA Medical Center, Shreveport, LA


                                   CBOC Services Provided 

In addition to primary care integrated with WH and MH care, the CBOCs provide various
specialty care, ancillary, and tele-health services. The following table lists the services
provided at each CBOC.j

                                                                                               Tele-Health
         CBOC            Specialty Care Servicesk            Ancillary Servicesl
                                                                                                Servicesm
    Longview                         ---                         Audiology                  Tele Primary Care
                                                         Diabetic Retinal Screening
                                                                  Nutrition
                                                             MOVE! Programn
    Monroe                           ---                 Diabetic Retinal Screening         Tele Primary Care
                                                                  Nutrition
                                                             MOVE! Program
    Texarkana                        ---                          Nutrition                 Tele Primary Care
                                                         Diabetic Retinal Screening
                                                             MOVE! Program


 




j
 Source: MedSAS outpatient files; the denoted Specialty Care and Ancillary Services are limited to Primary Clinic

Stops with a count ≥ 100 encounters during the July 1, 2012, through June 30, 2013, timeframe at the specified 

CBOC. 

k
  Specialty Care Services refer to non-Primary Care and non-Mental Health services provided by a physician. 

l
  Ancillary Services refer to non-Primary Care and non-Mental Health services that are not provided by a physician. 

m
  Tele-Health Services refer to services provided under the VA Telehealth program (http://www.telehealth.va.gov/) 

n
  VHA Handbook 1120.01, MOVE! Weight Management Program for Veterans, March 31, 2011. 

VA OIG Office of Healthcare Inspections                                                                         10
                                                                              CBOC and PCC Reviews at Overton Brooks VA Medical Center, Shreveport, LA
                                                                                                                                          Appendix B


                                                                   PACT Compass Metrics
                                                   FY 2013 Average 3rd Next Available in PC Clinics
                               80.0
                               70.0
   Average Number of Days




                               60.0
                               50.0
                               40.0
                               30.0
                               20.0
                               10.0
                                0.0
                                                        Overton Brooks VAMC
                                       VHA Total                                Texarkana (667GA)      Monroe (667GB)           Longview (667GC)
                                                                (667)
                            OCT FY13     14.6                  29.7                   28.6                  7.8                        61.8
                            NOV FY13     15.2                  27.2                   19.1                  9.9                        41.9
                            DEC FY13     13.8                  31.3                   26.1                  12.6                       53.0
                            JAN FY13     14.0                  32.8                   33.6                  9.9                        66.0
                            FEB FY13     14.8                  29.8                   35.5                  9.7                        59.3
                            MAR FY13     13.3                  30.6                   24.2                  6.5                        67.8
                            APR FY13     14.4                  33.6                   12.4                  6.9                        43.7
                            MAY FY13     16.0                  34.4                   14.9                  9.8                        31.0
                            JUN FY13     14.2                  40.8                   11.9                  7.0                        41.7
                            JUL FY13     14.6                  43.8                   11.0                  9.8                        67.5
                            AUG FY13     15.7                  30.3                   10.6                  8.9                        69.7
                            SEP FY13     13.4                  25.5                    7.5                  6.4                        37.4



Data Definition.5 The average waiting time in days until the next third open appointment slot for completed primary care appointments in stop code 350.
Completed appointments in stop code 350 for this metric include completed appointments where a 350 stop code is in the primary position on the appointment
or one of the telephone stop codes is in the primary position, and 350 stop code is in the secondary position. The data is averaged from the national to the
division level.

VA OIG Office of Healthcare Inspections                                                                                                                  11
                                                                                            CBOC and PCC Reviews at Overton Brooks VA Medical Center, Shreveport, LA



                                                            FY 2013 Established PC Prospective Wait Times 7 Days

                                                     100%



                 Percentage of Patients Scheduled
   80%
                   Within 7 Days of Desired Date




                                                     60%



                                                     40%



                                                     20%



                                                      0%
                                                            OCT     NOV     DEC     JAN        FEB    MAR     APR     MAY     JUN      JUL    AUG      SEP
                                                            FY13    FY13    FY13    FY13      FY13    FY13    FY13    FY13    FY13    FY13    FY13    FY13
     VHA Total                                              83.5%   81.1%   82.4%   82.6%     83.2%   83.6%   84.0%   84.0%   84.1%   84.3%   84.5%   84.7%
     Overton Brooks VAMC (667)                              90.9%   90.8%   91.5%   92.4%     91.2%   92.4%   93.9%   93.8%   93.7%   90.7%   92.7%   95.1%
     Texarkana (667GA)                                      92.6%   92.7%   89.8%   89.3%     89.4%   89.8%   88.2%   88.4%   88.3%   87.7%   87.2%   87.3%
     Monroe (667GB)                                         97.4%   95.3%   94.2%   95.0%     96.1%   98.0%   97.1%   96.0%   97.6%   97.9%   97.6%   95.2%
     Longview (667GC)                                       98.1%   97.1%   96.6%   96.8%     96.8%   97.3%   97.4%   95.7%   95.4%   93.8%   91.8%   91.9%




Data Definition.5 The percent of patients scheduled within 7 days of the desired date. Data source is the Wait Times Prospective Wait Times measures. The
total number of scheduled appointments for primary care-assigned patients in primary care clinics 322, 323 and 350. Data is collected twice a month on the
1st and the 15th. Data reported is for the data pulled on the 15th of the month. There is no FY to date score for this measure.


VA OIG Office of Healthcare Inspections                                                                                                                         12
                                                                                CBOC and PCC Reviews at Overton Brooks VA Medical Center, Shreveport, LA


                                                 FY 2013 Ratio of ER Encounters While on Panel to 
                                                 PC Encounters  While on Panel (FEE ER Included)
                                                30%
                                                28%
                                                26%
                                                24%
                  Percentage of ER Encounters

                                                22%
                                                20%
                       to PC Encounters


                                                18%
                                                16%
                                                14%
                                                12%
                                                10%
                                                8%
                                                6%
                                                4%
                                                2%
                                                0%
                                                      OCT     NOV     DEC     JAN      FEB    MAR     APR     MAY     JUN      JUL    AUG      SEP
                                                      FY13    FY13    FY13    FY13    FY13    FY13    FY13    FY13    FY13    FY13    FY13    FY13
        VHA Total                                     16.3%   16.3%   16.4%   16.3%   16.3%   16.3%   16.1%   16.1%   16.0%   15.9%   15.8%   15.7%
        Overton Brooks VAMC (667)                     26.9%   27.0%   27.0%   27.6%   27.7%   27.8%   27.5%   27.2%   26.6%   26.6%   26.7%   26.6%
        Texarkana (667GA)                             9.6%    9.6%    9.4%    9.3%    8.9%    8.6%    8.6%    8.5%    8.0%    7.8%    7.7%    6.9%
        Monroe (667GB)                                7.6%    7.7%    7.8%    8.2%    8.4%    8.7%    8.6%    8.6%    8.4%    8.3%    8.2%    7.9%
        Longview (667GC)                              12.8%   12.4%   12.5%   12.1%   11.9%   12.0%   11.6%   11.4%   11.1%   10.9%   10.8%   10.5%




Data Definition.5 This is a measure of where the patient receives his or her primary care and by whom. A low percentage is better. The formula is the total
VHA ER/Urgent Care/FEE ER Encounters WOP (including FEE ER visits) divided by the number of primary care encounters WOP with the patient’s
assigned primary care (or associate) provider plus the total VHA ER/Urgent Care/FEE ER Encounters (including FEE ER visits) WOP plus the number of
primary care encounters WOP with a provider other than the patient’s PCP/AP.


VA OIG Office of Healthcare Inspections                                                                                                                  13
                                                                        CBOC and PCC Reviews at Overton Brooks VA Medical Center, Shreveport, LA



                                       FY 2013 2‐Day Contact Post Discharge Ratio

      100%

        90%

        80%

        70%

        60%

        50%

        40%

        30%

        20%

        10%

         0%
                       VHA Total          Overton Brooks VAMC (667)      Texarkana (667GA)           Monroe (667GB)             Longview (667GC)
     OCT FY13            52.8%                      72.7%                      70.0%                      67.3%                      55.6%
     NOV FY13            52.9%                      73.7%                      75.0%                      75.0%                      48.8%
     DEC FY13            51.5%                      67.3%                      61.8%                      72.5%                      38.5%
     JAN FY13            57.2%                      77.1%                      74.3%                      70.0%                      26.1%
     FEB FY13            60.4%                      78.5%                      73.7%                      77.3%                      22.2%
     MAR FY13            64.4%                      79.5%                      62.5%                      86.0%                      35.6%
     APR FY13            65.5%                      77.0%                      62.2%                      81.4%                      35.7%
     MAY FY13            66.1%                      74.0%                      70.8%                      85.0%                      33.3%
     JUN FY13            70.1%                      77.8%                      66.7%                      86.0%                      33.3%
     JUL FY13            71.1%                      81.3%                      76.0%                      84.8%                      86.0%
     AUG FY13            72.7%                      83.0%                      71.4%                      84.8%                      82.9%

     SEP FY13            68.9%                      74.0%                      85.7%                      89.4%                      70.3%





Data Definition.5 Total Discharges Included in 2-day Contact Post Discharge Ratio: The total VHA and FEE Inpatient Discharges for assigned primary
care patients for the reporting timeframe. Discharges resulting in death and discharges where a patient is readmitted within 2 days of discharge are excluded
from this metric.

VA OIG Office of Healthcare Inspections                                                                                                                    14
                        CBOC and PCC Reviews at Overton Brooks VA Medical Center, Shreveport, LA
                                                                                    Appendix C
                              VISN Director Comments


               Department of
               Veterans Affairs                                 Memorandum


           Date:       February 24, 2014

          From:        Director, South Central VA Health Care Network (10N16)

       Subject: 	      CBOC and PCC Reviews of the Overton Brooks VA
                       Medical Center, Shreveport, LA

             To:       Director, Dallas Office of Healthcare Inspections (54DA)

                       Director, Management Review Service
                       (VHA 10AR MRS OIG CAP CBOC)

       1. The South Central VA Health Care Network (VISN 16) has reviewed
          and concurs with the draft Community Based Outpatient Clinic and
          Primary Care Clinic Report submitted by the Overton Brooks
          VA Medical Center, Shreveport, LA.

       2. If you have questions regarding the information submitted, please
          contact Reba T. Moore, VISN 16 Accreditation Specialist at
          (601) 206-7022.




VA OIG Office of Healthcare Inspections                                                      15
                        CBOC and PCC Reviews at Overton Brooks VA Medical Center, Shreveport, LA
                                                                                    Appendix D
                      Interim Center Director Comments



               Department of
               Veterans Affairs                                 Memorandum


           Date:       February 24, 2014

          From: 	      Interim Center Director, Overton Brooks VA Medical Center
                       (667/00)

       Subject: 	      CBOC and PCC Reviews of the Overton Brooks VA
                       Medical Center, Shreveport, LA

             To:       Director, South Central VA Health Care Network (10N16)

       1. The Overton Brooks VA Medical Center, Shreveport, LA, concurs with
          the findings included in the Community Based Outpatient Clinic
          (CBOC) and Primary Care Clinic Report for the Monroe, LA, CBOC.

       2. If you have questions or need additional information, please contact
          Myrtle Tate, Quality Management Consultant at (318) 990-5407.




VA OIG Office of Healthcare Inspections                                                      16
                        CBOC and PCC Reviews at Overton Brooks VA Medical Center, Shreveport, LA


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that all identified environment of care
deficiencies at the Monroe CBOC are reported to and tracked by the parent facility
Executive Safety Committee until resolution.

Concur

Target date for completion: February 25, 2014

Facility response: A representative from the Monroe CBOC was added as a voting
member to the Executive Safety Committee (ESC). Environment of Care Rounds
Deficiency Report was added to the agenda of the ESC. Per VHA Policy, citations
greater than 14 days for all EOC rounds including the Monroe CBOC will be reported to
the ESC. Deficiencies greater than 30 days will be elevated to the Medical Center
Governing Board for further action, including findings from the Monroe CBOC.

Evaluation method: Rounds will be tracked to completion and deficiencies reported to
the ESC. Performance goal for tracking is 100%.

Recommendation 2. We recommended that the parent facility include staff at the
Monroe CBOC in required education, training, planning, and participation in
annual disaster exercises.

Concur

Target date for completion: March 30, 2014

Facility    response:   CBOC      Administrative    Officers  are  participating    in
Emergency Management Committee meetings via VANTS telephone line and
participation is documented in the minutes. In future exercises, CBOC staff will be
asked to participate in support of main campus events. Administrative Officers have
been included in scheduled Incident Command Staff training which will be documented
on a class roster. Administrative Officers will ensure other CBOC staff are trained in
Emergency Management.

Evaluation  method:  Documentation       will  reflect  100%    participation in
Emergency Management training and participation in 90% of Emergency Management
Committee meetings.




VA OIG Office of Healthcare Inspections                                                      17
                        CBOC and PCC Reviews at Overton Brooks VA Medical Center, Shreveport, LA


Recommendation 3.       We recommended that CBOC/Primary Care Clinic staff
consistently complete diagnostic assessments for patients with a positive alcohol
screen.

Concur

Target date for completion: March 30, 2014

Facility response: Education was completed for CBOC/Primary Care providers on
February 19, 2014, to reinforce completion of diagnostic assessment for positive
alcohol screen. A process will be developed to assist providers in identification of
missed assessment.

Evaluation method: The facility will audit 50% of positive Audit-C cases each quarter, or
30 cases, whichever is greater until 90% compliance is sustained.

Recommendation 4.        We recommended that CBOC/Primary Care Clinic staff
consistently document the offer of further treatment to patients diagnosed with alcohol
dependence.

Concur

Target date for completion: February 19, 2014

Facility response: Education was completed for CBOC/Primary Care providers on
February 19, 2014, to reinforce documentation of further treatment offered to patients
with alcohol dependence.

Evaluation method: The facility will audit 50% of cases with alcohol dependence
diagnosis monthly for documentation of further treatment with a target of
90% compliance.

Recommendation 5.        We recommended that staff document that medication
reconciliation was completed at each episode of care where the newly prescribed
fluoroquinolone was administered, prescribed, or modified.

Concur

Target date for completion: March 31, 2014

Facility response: This finding was reviewed by the Pharmacy and
Therapeutics Committee on February 10, 2014. The committee recommended the
issue be discussed at the Medical Executive Committee. At the February 20, 2014,
Medical Executive Committee meeting providers were reminded they will document that
medication reconciliation has occurred when a newly-prescribed Fluoroquinolone is
administered, prescribed, or modified. An additional communication was sent to all
providers on February 21, 2014.



VA OIG Office of Healthcare Inspections                                                      18
                        CBOC and PCC Reviews at Overton Brooks VA Medical Center, Shreveport, LA


Evaluation method: Pharmacy Service will prospectively review 30 records or 10% of
cases (whichever is greater) for patients receiving a newly-prescribed Fluoroquinolone
to ensure medication reconciliation is documented in at least 95% of records reviewed.

Recommendation 6. We recommended that staff document the evaluation of
patient’s level of understanding for the medication education.

Concur

Target date for completion: March 31, 2014

Facility response: This finding was reviewed by the Pharmacy and
Therapeutics Committee on February 10, 2014. The committee recommended the
issue be discussed at the Medical Executive Committee. At the February 20, 2014,
Medical Executive Committee providers were reminded they will document the
patient’s level of understanding of medication education provided when a
newly-prescribed Fluoroquinolone is administered, prescribed, or modified.
An additional communication was sent to all providers on February 21, 2014.

Evaluation method: Pharmacy Service will prospectively review 30 records or
10%     of    cases    (whichever    is    greater)    for   patients receiving a
newly-prescribed Fluoroquinolone to ensure a patient’s level of understanding of
education provided is documented in at least 95% of records reviewed.




VA OIG Office of Healthcare Inspections                                                      19
                        CBOC and PCC Reviews at Overton Brooks VA Medical Center, Shreveport, LA
                                                                                    Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Rose Griggs, MSW, LCSW, Team Leader
Contributors            Larry Ross, MS
Other                   Lin Clegg, PhD
Contributors            Matt Frazier, MPH
                        Zhana Johnson, CPA
                        Jeff Joppie, BS
                        Misti Kincaid, BS
                        Cathleen King, MHA, CRRN
                        Jennifer Reed, RN, MSHI
                        Victor Rhee, MHS
                        Patrick Smith, M. Stat
                        Marilyn Stones, BS
                        Mary Toy, RN, MSN
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                      20
                        CBOC and PCC Reviews at Overton Brooks VA Medical Center, Shreveport, LA
                                                                                    Appendix F

                                   Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, South Central VA Health Care Network (10N16)
Director, Overton Brooks VA Medical Center (667/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: John Boozman, John Cornyn, Ted Cruz, Mary L. Landrieu, Mark L. Pryor,
 David Vitter
U.S. House of Representatives: Tom Cotton, John Fleming, Louie Gohmert,
 Vance McAllister


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                      21
                             CBOC and PCC Reviews at Overton Brooks VA Medical Center, Shreveport, LA
                                                                                         Appendix G

                                                   Endnotes 


1
    References used for the EOC review included:
	 US Access Board, Americans with Disabilities Act Accessibility Guidelines (ADAAG), September 2, 2002.
	 US Department of Health and Human Services, Health Insurance Portability and Accountability Act, The
     Privacy Rule, August 14, 2002.
	 US Department of Labor, Occupational Safety and Health Administration, Laws and Regulations.
	 US Department of Labor, Occupational Safety and Health Administration, Guidelines for Preventing Workplace
   Violence, 2004.
	 Joint Commission, Joint Commission Comprehensive Accreditation and Certification Manual, July 1, 2013.
	 VA Directive 0324, Test, Training, Exercise, and Evaluation Program, April 5, 2012.
	 VA Directive 0059, VA Chemicals Management and Pollution Prevention, May 25, 2012.
	 VA Handbook 6500, Risk Management Framework for VA Information System, September 20, 2012.
	 VHA Center for Engineering, Occupational Safety, and Health, Emergency Management Program Guidebook,
   March 2011.
	 VHA Center for Engineering, Occupational Safety, and Health, Online National Fire Protection Association
   Codes, Standards, Handbooks, and Annotated Editions of Select Codes and Standards, July 9, 2013.
	 VHA Deputy Under Secretary for Health for Operations and Management, Memorandum: Environmental
   Rounds, March 5, 2007.
	 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
	 VHA Directive 2012-026, Sexual Assaults & Other Defined Public Safety Incidents in VHA Facilities,
   September 27, 2012.
	 VHA Handbook 1006.1, Planning and Activating Community-Based Outpatient Clinics, May 19, 2004.
	 VHA Handbook 1330.01, Health Care Services for Women Veterans, May 21, 2010.
	 VHA Handbook 1850.05, Interior Design Operations and Signage, July 1, 2011.
2
  References used for the AUD review included:
	 National Center for Health Promotion and Disease Prevention (NCP), Veteran Health Education and Information
   (NVEI) Program, Patient Education: TEACH for Success. Retrieved from
   http://www.prevention.va.gov/Publications/Newsletters/2013/HealthPOWER_Prevention_News_Winter_2012_2
   013_FY12_TEACH_MI_Facilitator_Training.asp on January 17, 2014.
	 VHA Handbook 1120.02, Health Promotion Disease Prevention (HPDP) Program, July 5, 2012.
	 VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics,
   September 11, 2008.
3
  References used for the Medication Management review included:
	 VHA Directive 2011-012, Medication Reconciliation, March 9, 2011.
	 VHA Directive 2012-011, Primary Care Standards, April 11, 2012.
	 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
	 VHA Handbook 1108.07, Pharmacy General Requirements, April 17, 2008.
	 Joint Commission, Joint Commission Comprehensive Accreditation and Certification Manual, July 1, 2013.
4
  References used for the DWHP review included:
	 VHA Deputy Under Secretary for Health for Operations and Management, Memorandum: Health Care Services
   for Women Veterans, Veterans Health Administration (VHA) Handbook 1330.01; Women’s Health (WH)
   Primary Care Provider (PCP) Proficiency, July 8, 2013.
	 VHA Handbook 1330.01 Health Care Services for Women Veterans, May 21, 2010.
	 VHA Handbook 1100.19, Credentialing and Privileging, November 14, 2008.
5
  Reference used for PACT Compass data graphs:
	 Department of Veterans’ Affairs, Patient Aligned Care Teams Compass Data Definitions, August 29, 2013.




VA OIG Office of Healthcare Inspections                                                                    22
